No. 19-

 

 

IN THE
Supreme Court of the United States

ANGELA HAMM AND DAVID HAMM, PETITIONERS,
Vv.

STATE OF TENNESSEE.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF TENNESSEE

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,409 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
